         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Evaluation Report




       Development Growth Outpacing
       Progress in Watershed Efforts to
       Restore the Chesapeake Bay
       Report No. 2007-P-00031

       September 10, 2007
Report Contributors:	               Anthony Chirigotis
                                    Dan Engelberg
                                    Linda Fuller
                                    Kathryn Hess
                                    Frank Pelczarski
                                    Laura Tam




Abbreviations

CBPO            Chesapeake Bay Program Office (EPA)
EPA             U.S. Environmental Protection Agency
ESD             Environmentally Sensitive Development
GAO             Government Accountability Office
LEED-ND         Leadership in Energy and Environmental Design for Neighborhood Developments
MS4             Municipal Separate Storm Sewer System
NEMO            Nonpoint Education for Municipal Officials
NPDES           National Pollutant Discharge Elimination System
OIG             Office of Inspector General
TMDL            Total Maximum Daily Load




Cover photo:	     Farmland is lost to encroachment from housing developments in
                  central Maryland. (Photo courtesy U.S. Department of Agriculture,
                  Natural Resources Conservation Service)
                       U.S. Environmental Protection Agency                                              2007-P-00031

                                                                                                    September 10, 2007

                       Office of Inspector General


                       At a Glance
                                                                             Catalyst for Improving the Environment


Why We Did This Review            Development Growth Outpacing Progress in
This review is one of several     Watershed Efforts to Restore the Chesapeake Bay
conducted by the Office of
Inspector General in response      What We Found
to a congressional request.
We sought to determine how        EPA and its Chesapeake Bay watershed partners will not meet load reduction
well the U.S. Environmental       goals for developed lands by 2010 as established in the Chesapeake 2000
Protection Agency (EPA) is        Agreement. In fact, new development is increasing nutrient and sediment loads at
assisting its Chesapeake Bay      rates faster than restoration efforts are reducing them. Developed lands contribute
partners in restoring the Bay.    less than one-third of the Bay loads but would require about two-thirds of the
This report focuses on            overall estimated restoration costs. Consequently, EPA and its Bay partners
progress to reduce nutrient and   focused on more cost-effective approaches, such as upgrading wastewater
sediment loads from               facilities and implementing agricultural best practices. Additional challenges
developed and developing          impeding progress include:
land sources.                          •	 Lack of community-level loading caps.
                                       •	 Shortage of up-to-date information on development patterns.
Background                             •	 Ineffective use of regulatory program to achieve reductions.
                                       •	 Limited information and guidance on planning and applying

Over 64,000 square miles of
                                          environmentally sensitive development practices. 

land drain to the Chesapeake
                                       •	 Limited funding available for costly practices.
Bay. Population in the
watershed exceeds 16 million      A cost-effective start to reversing the trend of increasing loads from developed
and is projected to surpass       land is for communities to concentrate on new development. Opportunities
19 million before 2030.           abound for EPA to show greater leadership in identifying practices that result in
Excessive loads of nutrients      no-net increases in nutrient and sediment loads from new development and
and sediments have been           assisting communities in implementing these practices. If communities do not
identified as primary causes of   sufficiently address runoff from new development, loads from developed lands
Bay degradation. From 1985        will continue to increase rather than diminish. As a result, restoration costs will
to 2005, EPA estimated loads      increase, and the Bay will not be restored to the health envisioned in the
from developed land sources       Chesapeake 2000 Agreement because water quality degradation and loss of
increased up to 16 percent,       aquatic life will continue.
while loads from wastewater
disposal and agriculture           What We Recommend
decreased.
                                  We recommend that the EPA Chesapeake Bay Program Office Director prepare
For further information,          and implement a strategy that demonstrates leadership in reversing the trend of
contact our Office of             increasing nutrient and sediment loads from developed and developing lands.
Congressional and Public
Liaison at (202) 566-2391.
                                  The strategy should include developing a set of environmentally sensitive design
                                  practices and support for the use of those practices. The Chesapeake Bay Program
To view the full report,          Office Director should also work with Bay partners to set realistic, community-
click on the following link:      level goals for reducing loads from developed and developing lands. In addition,
www.epa.gov/oig/reports/2007/     the EPA Region 3 Water Protection Division Director should establish a
20070910-2007-P-00031.pdf         stormwater permitting approach that achieves greater nutrient and sediment
                                  reductions. EPA concurred with the recommendations in this report.
                          UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                       WASHINGTON, D.C. 20460


                                                                                            OFFICE OF
                                                                                       INSPECTOR GENERAL


                                       September 10, 2007

MEMORANDUM

SUBJECT:	              Development Growth Outpacing Progress in Watershed Efforts
                       to Restore the Chesapeake Bay
                       Report No. 2007-P-00031


FROM:                  Wade T. Najjum
                       Assistant Inspector General for Program Evaluation

TO:                    Donald S. Welsh
                       Regional Administrator, Region 3


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $783,489.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at 202-566-0827
or najjum.wade@epa.gov; Dan Engelberg, Director, at 202-566-0830 or engelberg.dan@epa.gov;
or Linda Fuller, Project Manager, at 617-918-1485 or fuller.linda@epa.gov.
                             Development Growth Outpacing Progress in 

                           Watershed Efforts to Restore the Chesapeake Bay




                                Table of Contents 


Chapters
 1    Introduction ...........................................................................................................      1     


              Purpose ..........................................................................................................    1         

              Background ....................................................................................................       2         

                    Bay Watershed Environmental Setting and Demographics................                                            2     

                    Bay Pollution Sources and Impacts ....................................................                          3     

                    Restoration Partnerships ....................................................................                   5     

                    Loading Caps for Developed and Developing Lands .........................                                       6     

              Noteworthy Achievements..............................................................................                 7         

              Scope and Methodology.................................................................................                7         


 2    Load Reduction Goals Will Not Be Met ...............................................................                          8     


              Losing Ground in Meeting Reduction Goals...................................................                           8

              EPA Could Better Support Local Community Efforts......................................                               10 

              Challenges Impede Load Reduction Progress ...............................................                            10 

                     Lack of Community-Level Loading Caps ............................................                             10 

                     Shortage of Up-to-Date Information on Development Patterns ..........                                         12 

                     Ineffective Use of Regulatory Program...............................................                          13 

                     Limited Information and Guidance on Planning and Applying ESD....                                             14 

                     Limited Funding Available for Costly Practices...................................                             17

              Conclusions ....................................................................................................     19         

              Recommendations .........................................................................................            20         

              Agency Comments and OIG Evaluation ........................................................                          20 


 Status of Recommendations and Potential Monetary Benefits.................................                                        21 




Appendices
 A    Details on Scope and Methodology.....................................................................                        22 


 B    Community Practices to Minimize Impacts of Development 

      on a Watershed......................................................................................................         26 


 C    Details on Load Reduction Progress ..................................................................                        28 


 D    Agency Response to Draft Report.......................................................................                       30 


 E    Distribution ............................................................................................................    31

                                Chapter 1
                                Introduction

Purpose
          In 2000, the U.S. Environmental Protection Agency (EPA) and its Chesapeake
          Bay Program partners (Bay partners) agreed to improve the water quality of the
          Chesapeake Bay and its tidal tributaries by 2010. EPA and its partners planned to
          improve the water quality to the level needed for the waters to be removed from
          EPA’s impaired waters list. Based on stakeholder concerns, U.S. Senator Barbara
          A. Mikulski of Maryland requested that the EPA Office of Inspector General
          (OIG) evaluate progress being made in reducing nutrient and sediment loads to
          the Bay. This report focuses on progress in reducing contributions from
          developed and developing lands. We previously reported on progress in reducing
          agricultural and air deposition sources. An additional report on municipal
          wastewater treatment discharges is forthcoming.

          Controlling sources of nutrients and sediments from developed and developing
          lands is important in light of continuing population growth and development
          within the Bay’s watershed. To determine the extent to which the Bay partners
          are meeting their restoration commitments and the extent of EPA’s support, we
          sought to answer the following questions:

          •	 Can the goals for reducing nutrient and sediment loads from developed and
             developing lands be accomplished and sustained to restore the ecological
             health of the Chesapeake Bay by 2010?

          •	 To what extent is EPA supporting the Chesapeake Bay Program partners in
             their efforts to implement and sustain load reduction practices on developed
             and developing lands within the watershed?

          •	 What challenges must be overcome to effectively implement management
             practices to meet and sustain reduction goals for nutrient and sediment loads
             from developed and developing lands within the Chesapeake Bay watershed?




                                          1

Background

        Bay Watershed Environmental Setting and Demographics

        The Chesapeake Bay provides 

        economic and recreational 

        opportunities estimated to exceed 

        $33 billion annually, according to a 

        1989 economic study by the State of 

        Maryland. Over 64,000 square miles 

        of land drain to the Bay or one of its 

        tributaries (see Figure 1-1). 


        The watershed includes more than 

        1,600 local governments, the District 

        of Columbia, and parts of six States: 


             •	   Virginia
             •	   Maryland
             •	   Pennsylvania                       Figure 1-1. Chesapeake Bay Watershed
             •	   New York                           (Source: Chesapeake Bay Program Office)
             •	   Delaware
             •	   West Virginia

        The population in the watershed area exceeds 16 million and is projected to
        surpass 19 million before 2030. Population is particularly concentrated along
        Interstate 95. The major urban areas in the watershed all lay on tributaries or the
        Bay. Some of these major urban areas and tributaries are shown in Figures 1-2
        and 1-3, respectively.

                      Major Urban Areas in                          Major Tributaries in
                  Chesapeake Bay Watershed                       Chesapeake Bay Watershed
             •	    Harrisburg, Pennsylvania                          • Susquehanna
             •	    Baltimore, Maryland                               • Patuxent
             •	    District of Columbia                              • Potomac
             •	    Annapolis, Maryland                               • Shenandoah
             •	    Richmond, Virginia                                • Rappahannock
             •	    Hampton Roads, Virginia                           • York
                   (Norfolk-Virginia Beach area)                     • James
         Figure 1-2. (Source: EPA OIG review)                 Figure 1-3. (Source: EPA OIG review)



        Much of the population growth is projected to occur in the suburban and rural
        edges of these metropolitan areas. For example, the population of Loudoun and
        Spotsylvania Counties, Virginia, are projected to more than double between 2000
        and 2030.


                                                2

             Different restoration approaches are needed in different parts of the watershed
             because of variations in governmental structure, physical geography, and land
             use. The watershed stretches from the Appalachian Mountains to tidewater
             regions. Land use also varies, with developed lands (urban areas and mixed open)
             covering 20 percent of the watershed, forests 57 percent, agriculture 22 percent,
             and non-tidal water 1 percent.

             Bay Pollution Sources and Impacts
             Excessive loads of nutrients and sediments have been identified as the primary
             cause of water quality degradation and loss of aquatic life in the Bay and its
             tributaries.

                                                      Nutrients: Nitrogen and phosphorus are
                                                      essential nutrients for plant growth, but in
                                                      excessive quantities promote growth of algal
                                                      blooms. As the algae die and decompose,
                                                      oxygen in the water is consumed. Without
                                                      oxygen, fish, crabs, and many other aquatic
                                                      dwellers cannot live.

                                                      Sediments: Water flowing off the
                                                      watershed landscape carries suspended
                                                      sediment – particles of sand, silt, clay, and
                                                      organic material. These sediments block
                                                      sunlight from passing through the water,
                                                      impact aquatic habitat, and hinder the
                                                      growth of submerged aquatic vegetation.

                                                      The major population centers in the
                                                      watershed are easily identified on the map of
                                                      modeled loads of nitrogen from developed
                                                      lands (Figure 1-4); they are the areas of high
                                                      loading rates. Applications of fertilizers
                                                      onto home lawns, golf courses, and
                                                      parklands contribute nitrogen and
                                                      phosphorus. Other sources of nitrogen
Figure 1-4. Modeled distribution of density
                                                      include atmospheric deposition and septic
of nitrogen loading rates from developed              (onsite wastewater disposal). Sources of
land sources in the Chesapeake Bay                    sediment include disturbance of land during
Watershed.                                            construction and erosion of stream banks
(Source: U.S. Geological Survey Sparrow Model)        and sediments already accumulated in
                                                      streams.




                                                 3

               EPA’s Chesapeake Bay Program Office (CBPO) currently divides the loads from
               developed lands into three categories: urban runoff, septic systems, and runoff
               from mixed open areas (such as golf courses and parks). Based on 2005
               estimated loads to the Bay, these three categories together account for 24 percent
               of the nitrogen load, 30 percent of the phosphorus load, and 18 percent of the
               sediment load (see Figure 1-5).




             Nitrogen Loads - 2005                                Phosphorus Loads - 2005
                                                                                 Forest 2%
             Forest
              15%
                                        Agriculture
                                           40%                 Wastewater
                                                                 22%                                   Agriculture
                                                                                                          45%

Wastewater
  20%
                                                        Mixed Open
                                                           13%


      Septic 5%
                                      Atmospheric Deposition
      Mixed Open 7%                   to Non-Tidal Water 1%       Urban Runoff
                                                                                             Atmospheric Deposition
                       Urban Runoff                                   17%
                                                                                             to Non-Tidal Water 1%
                           12%
                                         Sediment Loads - 2005
                                        Forest
                                         20%
                                                                            Agriculture
                                                                               62%

                            Mixed Open
                                8%


                            Urban Runoff
                                10%




     Figure 1-5. Estimated loads of nitrogen, phosphorus, and sediment into Bay for 2005.
     (Source: CBPO, Chesapeake Bay Watershed Model, v. 4.3)



               In this report, these three sources will be considered together as a developed-land
               sector, even though only some of the lands grouped in the mixed open category
               are developed lands. Most of the report focuses on runoff from developed and
               developing lands; septic systems are discussed only when related to new
               development. Relative to the estimated loads from other major source sectors –
               agriculture, wastewater facilities, and forests – the developed-land sector
               contributes significantly, but is not the largest source.


                                                       4

About a third of the nitrogen delivered to the Bay comes from mobile and
stationary air emission sources, such as automobiles and power plants. This air-
delivered component of the nitrogen load is included in Figure 1-5 with each land
use area on which it falls. This nitrogen is quickly swept by stormwater from the
impervious surfaces that dominate developed lands and is carried to the receiving
water. We addressed efforts to reduce the air-delivered component of the
nitrogen load to the Bay in our report EPA Relying on Existing Clean Air Act
Regulations to Reduce Atmospheric Deposition to the Chesapeake Bay and its
Watershed, issued in February 2007.

Development converts a natural landscape to impervious surfaces, such as roads,
driveways, sidewalks, parking lots, rooftops and storm drains. This traditionally
has detrimental environmental impacts. A natural landscape slows and adsorbs
precipitation, releasing it gradually to local streams. Developed lands quickly
channel water, nutrients, sediment, and trash into local streams and rivers, eroding
streambanks, polluting the waterways, and changing how water moves through
the watershed. In general, water quality of a local stream is likely to be impacted
when the amount of impervious surface exceeds 10 percent of the stream’s
watershed.

Restoration Partnerships

Chesapeake 2000 is the latest agreement to establish a partnership among the
watershed jurisdictions and the Federal Government to protect and restore the
Bay. The agreement was signed by members of the Chesapeake Executive
Council – the governors of Maryland, Virginia, and Pennsylvania; the mayor of
the District of Columbia; the chairman of the tri-State legislative Chesapeake Bay
Commission; and the EPA Administrator (representing the Federal Government).
The Council establishes the policy direction and motivates the Bay partners to
take the expensive and vital steps needed to achieve and sustain the restoration
goals of the Chesapeake 2000 Agreement.

CBPO was established by a 1987 amendment to the Clean Water Act to provide
support to the Chesapeake Executive Council. Part of CBPO’s charge in Section
117 of the Act is coordinating the actions of EPA with those of appropriate
officials of other Federal agencies and State and local authorities to develop
strategies to:

   •	 Improve the water quality and living resources in the Chesapeake Bay
      ecosystem.
   •	 Obtain the support of the appropriate officials of the agencies and
      authorities in achieving the objectives of Chesapeake Bay agreements.




                                 5

              Loading Caps for Developed and Developing Lands

              The Chesapeake Bay Program is a collaborative partnership among the Federal
              Government, District of Columbia, and States. The partners collectively
              determined the loads of nutrients and sediment that the Bay and tidal waters could
              assimilate and the goals needed to achieve the restoration envisioned in the
              Chesapeake 2000 Agreement. The partners allocated these load caps by river
              basin and jurisdiction (State or District of Columbia). Each jurisdiction then drew
              its own strategy for how it would meet the cap load allocations. In their tributary
              strategies, the jurisdictions identified management practices to achieve the
              reductions needed in each sector, relying on current permit requirements, as well
              as efforts that extend beyond requirements. Each jurisdiction chose to place
              reductions on the various sectors based on its current loading rates, governmental
              structure, economic goals, and environmental priorities.

              Table 1-1 shows the total                   Table 1-1. 2010 Loading Caps for
              2010 loading caps for developed and         Developed and Developing Lands
              developing lands established by the                                       Loading
              partners. The reductions needed to                                      (in millions)
                                                          Nitrogen (lbs/yr)               44.27
              reach these goals are relatively minor      Phosphorus (lbs/yr)              3.77
              compared to those expected from             Sediment (tons/yr)               0.64
              agriculture sources and wastewater          Source: Estimates from Chesapeake Bay
              treatment facilities. Loads from            Program Phase 4.3 watershed model
              developed lands account for up to
                                    30 percent of nutrient and sediment loads to the Bay,
                                    whereas the reduction goals for developed and developing
                                    lands make up less than 10 percent of the overall reductions
                                    needed to achieve Bay restoration. In their tributary
                                    strategies, Bay partners indicated reduction goals for
                                    developed and developing lands would be met through
                                    control of stormwater quality and quantity, promotion of
                                    environmentally sensitive development (ESD), upgrade of
                                    septic systems, education of the public, and direct decrease
                                    of sources.

                                    The primary regulatory program for achieving load
                                    reductions on developed and developing lands is the Federal
                                    stormwater program. This program was added to the Clean
                                    Water Act in 1987 and is a component of EPA’s National
                                    Pollutant Discharge Elimination System (NPDES) program.
                                    Most relevant are parts of the program that control runoff
                                    from construction sites and municipal stormwater.
Corrective action was taken to      Construction activities that disturb one or more acres are
restore a stream previously
impacted by excessive runoff        currently regulated regardless of location. The goal of the
from developed land, Cecil          construction requirements is to stabilize sediment. EPA
County, Maryland. (OIG Photo)       Office of Water develops national general stormwater



                                                6

         permits for construction and industrial activities that apply in areas where State
         permitting authorities do not have jurisdiction. Municipal Separate Storm Sewer
         System permits were added to the NPDES program to better control physical,
         biological, and chemical effects that runoff from developed lands can have on the
         receiving waters. Programs outside regulatory requirements are also used to meet
         load reduction goals. Some of these programs include citizen education, stream
         restoration, volunteer monitoring, brownfields restoration, and stormwater system
         retrofitting.

Noteworthy Achievements
         EPA and its Bay partners have developed several noteworthy approaches to
         reduce nutrients and sediment entering the Bay from developed and developing
         lands. One example is the September 2006 memorandum of understanding
         between the Chesapeake Executive Council and two manufacturers of home lawn
         fertilizer. These manufacturers agreed to reduce by 50 percent the amount of
         phosphorus in their products by 2009. In addition, they promised to study the
         possibility of reducing nitrogen levels in their fertilizers.

         Other noteworthy achievements include promoting innovative techniques for
         controlling stormwater and supporting compliance with stormwater regulations.
         These achievements are discussed in greater detail in Chapter 2. In some cases,
         they are highlighted in green sidebar boxes.


Scope and Methodology
         We conducted this evaluation from December 2005 through November 2006 in
         accordance with Government Auditing Standards, issued by the Comptroller
         General of the United States. We used a variety of methods to evaluate whether
         the goals for developed and developing lands would be met, to assess EPA’s level
         of support of the efforts, and to identify challenges. Appendix A contains detailed
         information on the scope and methodology of our evaluation. We specifically
         evaluated progress toward meeting the caps on nutrient and sediment loads from
         developed and developing lands and the goal to reduce the rate of sprawl
         development. We limited our evaluation to efforts within the signatory
         jurisdictions of the District of Columbia, Maryland, Virginia, and Pennsylvania.
         We consulted primary documents, conducted interviews, visited nine local
         communities, and developed a set of practices for minimizing the impacts of
         development on the watershed (see Appendix B).




                                          7

                                Chapter 2
         Load Reduction Goals Will Not Be Met

         EPA and its Chesapeake Bay watershed partners will not meet load reduction
         goals for developed lands by 2010 as established in the Chesapeake 2000
         Agreement. In fact, new development is increasing nutrient and sediment loads at
         rates faster than restoration efforts are reducing them. Developed lands contribute
         less than one-third of the Bay loads but would require about two-thirds of the
         overall estimated restoration costs. Consequently, EPA and its Bay partners
         focused on more cost-effective approaches, such as upgrading wastewater
         facilities and implementing agricultural best practices. Additional challenges
         impeding progress include:
             •	 Lack of community-level loading caps.
             •	 Shortage of up-to-date information on development patterns.
             •	 Ineffective use of regulatory program to achieve reductions.
             •	 Limited information and guidance on planning and applying
                environmentally sensitive development practices.
             •	 Limited funding available for costly practices.
         A cost-effective start to reversing the trend of increasing loads from developed
         land is for communities to concentrate on new development. Opportunities
         abound for EPA to show greater leadership in identifying practices that result in
         no-net increases in nutrient and sediment loads with new development and
         assisting communities in implementing these practices. If communities do not
         sufficiently address runoff from new development, loads from developed lands
         will continue to increase rather than diminish. Restoration costs will increase and
         the Bay will not be restored to the health envisioned in the Chesapeake 2000
         Agreement because water quality degradation and loss of aquatic life will
         continue.

Losing Ground in Meeting Reduction Goals
         New development is increasing nutrient and sediment loads at rates faster than
         loads are being reduced from developed lands. Little progress has been reported
         in reaching nutrient and sediment load reduction goals from developed lands.
         Judging just the load reductions from implementing the actions laid out in the
         tributary strategies, about 18 to 28 percent of each reduction goal was reported as
         being achieved in 2005 for developed lands. At this rate, full implementation of
         the developed land part of the strategies will not occur until 2028 at the earliest –
         many years after the 2010 goal.




                                           8

Table 2-1. Increasing Reductions Needed
                         Reductions            Reductions
                        Needed Based              Needed        Increase in     Percentage
                           on 2000            Based on 2005     Reductions          of
                          Loadings               Loadings         Needed         Increase
                         (in millions)          (in millions)   (in millions)
Nitrogen (lbs/yr)           16.40                 17.48             1.08            7%
Phosphorus (lbs/yr)          1.55                  1.75             0.20           13%
Sediment (tons/yr)           0.22                  0.26             0.04           18%
Source: Estimates from Chesapeake Bay Program Phase 4.3 watershed model


    CBPO estimates that impervious surfaces in the Bay watershed grew significantly
    – by 41 percent – in the 1990s. Meanwhile, the population increased by only
    8 percent. Because progress in reducing loads is being offset by increasing loads
    from new development, greater reductions will be needed to meet the goals (see
    Table 2-1). Additional information on the tracking of loads from developed and
    developing lands is provided in Appendix C.

    CBPO estimated that loads from developed and developing lands increased while
    loads from agriculture and wastewater facilities decreased. Loads from developed
    and developing lands were 12 to 16 percent higher in 2005 than in 1985. More
    than 90 percent of these loads are from the District of Columbia, Maryland,
    Pennsylvania, and Virginia.

    To meet the reductions in loads laid out by the jurisdictions, the adaptive
    management approach of the federally-mandated municipal stormwater program
    needs to be accelerated. Since 1990, Municipal Separate Storm Sewer Systems
    (MS4) permits have been required for medium and large cities to discharge
    stormwater runoff. Regulations for smaller urban areas took effect more recently
    and do not apply to all small developed areas, such as rural town centers.
    However, States can elect to extend coverage, which Maryland did.

    Where total maximum daily load (TMDL) allocations have been established for
    local waters, Bay restoration may also benefit. A TMDL is an estimated load of a
    particular pollutant that a waterbody can safely assimilate and an allocation of that
    load to the pollutant’s sources. These waste load allocations are then incorporated
    into new and renewed permits. The calculation of TMDL allocations is part of
    Clean Water Act requirements for restoring impaired waters. Many of the rivers,
    streams, and creeks within the Bay watershed, as well as the Bay itself, are on the
    Federal impaired waters list. TMDL allocations have been, or will be, established
    for these impaired waters. If Bay waters are not restored by 2010, a Bay-wide
    TMDL will need to be established by Bay partners. Chesapeake 2000 was
    adopted partly to avoid needing a Bay-wide TMDL. Without giving up on
    achieving the 2010 restoration goals, the partners are collaborating to lay
    groundwork for a possible Bay-wide TMDL.



                                         9

EPA Could Better Support Local Community Efforts
          EPA has taken steps to support efforts by its Bay partners and local communities
          to reduce nutrient and sediment loads to the Bay from developed and developing
          lands, as well as to reduce the rate of growth of sprawl development. However,
          some of these steps are incomplete, local communities still face numerous
          challenges, and opportunities remain for the CBPO to provide greater leadership.

          The Clean Water Act defined part of CBPO’s role as working in cooperation with
          Federal, State, and local authorities in developing and implementing strategies to
          restore the Bay. In addition, EPA identified the Bay as a critical ecosystem in its
          2006-2011 Strategic Plan with an objective to restore and protect the Bay’s
          overall aquatic system health. EPA committed to increasing the current pace of
          restoration to achieve water quality standards as soon as possible. It would do
          this by working with its Bay partners to identify opportunities to reduce nutrient
          and sediment loads and find new economies and innovations to accelerate
          progress dramatically. Examples of this EPA support are included in the
          “Noteworthy Achievement” boxes on subsequent pages.

          EPA and its Bay partners are relying on local communities to change their
          development strategies to minimize impacts of new development on the
          watershed. EPA could be more supportive of local communities in overcoming
          the challenges they face to achieve and sustain the Bay restoration goals. Specific
          challenges EPA needs to address to better support local community efforts are
          included in the following section.

Challenges Impede Load Reduction Progress
          Part of CBPO’s charge is to work in cooperation with Federal, State, and local
          authorities to develop and implement strategies to restore the Bay. EPA and its
          State partners are relying on local communities to reduce sources of nutrients and
          sediment and adopt ESD practices. We identified five challenges that CBPO and
          its State and local partners need to cooperatively address to reduce loads from
          developed and developing lands: setting community goals, gathering information
          on recent development, increasing stormwater permit requirements, providing
          guidance on ESD, and securing funding for needed practices. Details on these
          challenges follow.

          Lack of Community-Level Loading Caps

          According to the CBPO, specific nutrient and sediment loading caps have not
          been set for local communities, even though the local level is where stormwater
          and development are managed. Consequently, communities have an insufficient
          understanding and diminished inclination to contribute to meeting the overall cap
          loads needed to restore the Chesapeake Bay. Successful restoration to achieve
          Bay water quality goals requires that these community-level goals be established


                                           10 

            and communicated to all partners, including the local communities. Local
            partners then need to accept these goals and their own roles and responsibilities
            for achieving them.

            As explained in the section “Loading Caps                 Noteworthy Achievement
            for Developed and Developing Lands,” each
                                                                 Using Green Infrastructure
            jurisdiction chose how to allocate by sector         to Protect Water Quality
            the reductions needed for Bay restoration.
            In determining reduction goals from                  EPA’s Administrator recently
            developed and developing lands for each              signed a statement promoting
                                                                 community and utility use of green
            major tributary watershed, States started            infrastructure. Also, EPA’s
            with the reductions in nutrient and sediment         Assistant Administrator for Water
            loads that were expected through the current         called for EPA water programs “to
            permit cycle of the stormwater management            exert leadership in the consistent
            program. They next layered into the plan             and reliable implementation of
                                                                 green infrastructure approaches.”
            other efforts to reach needed reductions.            Green infrastructure protects
            Additional efforts included changes in               water quality and provides other
            development practices, retrofitting existing         environmental and societal
            developed lands, enhancing green                     benefits. Examples of green
            infrastructure (see box), and restoring              infrastructure include green roofs,
                                                                 urban tree canopy, rain gardens,
            impaired streams. Some communities                   and riparian buffers. In Rooftops
            already are undertaking these efforts. To            to Rivers: Green Strategies for
            achieve Bay restoration, communities across          Controlling Stormwater and
            the watershed will need to implement these           Combined Sewer Overflows, the
            practices that extend beyond their current           National Resources Defense
                                                                 Council reported that some of the
            regulatory requirements and possibly the             more aggressive and innovative
            needs of their local waters. They should             green infrastructure approaches to
            know the magnitude and nature of the                 stormwater are located around the
            additional efforts that will be needed.              Chesapeake Bay.
            However, eight of the nine communities we
            visited had not been given specific load reduction goals. The one exception was
            the District of Columbia. As a signatory jurisdiction, the District was given
            specific reduction goals in the initial allocation process.

             When EPA and its Bay partners re-evaluate their Bay restoration strategies in
             2008, they should seek local community input and buy-in on setting realistic goals
                                            for reducing loads from developed and developing
                                            lands. EPA and its partners will need to cascade
                                            the overall goals down to community-level
                                            reduction goals. Much of the work needed to
                                            make these reductions is expensive and not
                                            required by regulations. Without specific goals
                                            and implementation strategies, many communities
                                             may have limited appreciation of what they need
A “green,” stormwater-management roof on     to do to contribute to Bay restoration.
an EPA building in Arlington, Virginia (EPA
photo).



                                               11 

Community-level reduction goals could help local governments manage new
development and redevelopment to eliminate adverse impacts. States could create
trading and offset programs that include stormwater controls if community-level
nutrient and sediment reduction goals are set. Without these specific goals,
certifying that a proposed action is beyond what is needed to meet the Chesapeake
Bay cap load allocations and is, therefore, available for trading, would be
difficult. Effective trading and offset programs could assist progress in reducing
loads from developed and developing lands. Finally, community-level reduction
goals could assist in establishing water-quality based targets in regulatory
programs, such as TMDLs and NPDES permits.

Shortage of Up-to-Date Information on Development Patterns

Since 2000, EPA and its Bay partners have not reported on progress in reducing
the rate of sprawl development. According to the CBPO Associate Director for
Ecosystem Management, CBPO and its Bay partners did not report on progress
partly because of an inability to define sprawl development in an easily
measurable way. Also, the partners lacked access to sufficiently reliable and
updated data on land-use changes and implementation of management practices.
One of the goals of the Chesapeake 2000 Agreement is to reduce the growth rate
of sprawl development and periodically report to the Executive Council on this
progress.

Bay partners adopted growth in impervious surfaces on a watershed basis as their
measurement for meeting the sprawl growth goal. However, obtaining reliable,
up-to-date information at the watershed scale has not been practical. Further, this
information, even if available, may not assist local communities because it is at
the wrong scale for their growth management and planning needs. EPA’s future
efforts to develop better measures and report on development should be done in
ways that assist local communities in making informed decisions on development.

When EPA and its Bay partners consider allocating nutrient and sediment
reduction goals to the community level, they should include local communities in
committing to reducing sprawl development. The local communities could
provide the Chesapeake Bay Program reliable and up-to-date information on
changes in development in their jurisdictions. In return, local communities would
be recognized for their progress, and would have access to better information on
development changes in nearby communities.

EPA also needs updated land use data to improve the usefulness of its new
watershed model as a predictive management tool. We encourage EPA to
continue its efforts to develop 5-year forecasts of land use out to the year 2030.
If these forecasts are developed with up-to-date local and State input, they will be
useful in local efforts.




                                 12 

           Ineffective Use of Regulatory Program

           EPA and its Bay partners could have achieved greater load reductions by more
           effectively using their stormwater regulatory program. The MS4 permit is the
           primary regulatory tool for EPA and its Bay Partners to use in assisting
           communities in reducing nutrient and sediment loads from developed and
           developing lands. Actions implemented under these permits mitigate the local
           effects of storm runoff on rivers and streams. To promote greater load reductions,
           the Chesapeake Executive Council directed the Chesapeake Bay Program in 2004
           to develop approaches for stormwater management that are “more prevention-
           oriented, more effective and efficient, and that make the best use of regulatory,
           voluntary and incentive tools." EPA and its Bay partners recently took steps to
           achieve more progress in the regulatory stormwater program. However, effective
           stormwater management in the watershed remains hampered by the lack of
           adequate research on new management practices, absence of waste load
           allocations, and limitations of the legislated form of the program.

           Stormwater management was added to the Clean Water Act in 1987 to mitigate
           negative impacts of runoff from developed lands on the receiving water bodies. It
           relies on an adaptive management approach, in which communities implement a
           reasonable set of mitigation measures, monitor results, and then propose a new set
           of measures for the next permit cycle. This approach differs from the numerical
           effluent limits used in permits for wastewater discharge.

           Some of the attributes of MS4 permits that may limit their effectiveness in
           achieving Bay restoration goals include lack of numerical water-quality goals,
           implementation that evolves with each 5-year permit cycle, no requirements to
           retrofit stormwater systems to achieve greater environmental protection, and their
           reliance on technology-based rather than water quality-based approaches. In
           addition, some of the actions taken address problems other than nutrient and
           sediment loads, such as reducing flooding risks, and are relatively inefficient at
           removing nutrients. Further, not all developed and developing lands are covered
           by MS4 permits.

                                             While these attributes make the MS4 permit a
                                             less-than-ideal tool for achieving restoration
                                             goals, State permit writers and EPA could have
                                             strengthened the MS4 permits when the
                                             opportunities arose, as they chose to do with
                                             NPDES wastewater treatment permits. The
                                             communities that we visited focus their watershed
                                             efforts on meeting the requirements of their
                                             stormwater management programs. This suggests
A bioretention stormwater management         that if EPA and its Bay partners were to
system designed to treat rooftop and         strengthen the MS4 permits to include greater
parking lot runoff, Cecil County, Maryland   nutrient and sediment reductions, the
(EPA OIG Photo)



                                             13 

communities would implement the needed steps. Measurable, numerical goals in
line with the Chesapeake 2000 Agreement and a probable Bay-wide TMDL
should be considered for future permits.

EPA and its Bay partners can further strengthen their regulatory approach by
consistently linking stormwater permit requirements and TMDLs for impaired
local waters. Even though TMDLs may be developed to correct local
impairments, not impairment of the Bay, local TMDL implementation and Bay
restoration can be linked. Actions taken to correct local impairments may serve
as the foundation needed to reduce loads to the Bay from developed and
developing lands. Improved coordination between local TMDL and Bay
restoration efforts may accelerate progress in both programs.

EPA Region 3 is conducting a Review of EPA’s Regulatory Programs and
Authorities to Meet Chesapeake Bay Restoration Objectives. The aim is for EPA
and its Bay partners “to use a strategic combination of NPDES regulatory tools,
state authorities and especially local planning, zoning and erosion and sediment
control authorities to develop this more cost-effective, preventive approach to
stormwater management.” In response, EPA Region 3 formed a permanent
workgroup with its Bay partners. Although we did not evaluate the effectiveness
of this new “Stormcatchers” program, it aims to improve the utility of stormwater
permits. It would do so by better integrating permits with TMDLs, improving
monitoring of stormwater, promoting use of ESD practices, and assisting
communities in developing local program funding.

Limited Information and Guidance on Planning and Applying ESD

Some communities are unprepared to achieve the load reduction goals from
developed and developing lands while accommodating economic and population
growth. Some communities already have extensive responsibilities related to the
Clean Water Act. Meeting the Chesapeake Bay goals adds further responsibilities
not required under the Act. Communities may also be reluctant to invest in
practices without further information on effectiveness. EPA can support local
communities by:

   (1) completing a set of stormwater management principles to guide growth
       and development through ESD;
   (2) addressing potential conflicts between environmental and economic goals,
       and
   (3) expanding educational opportunities so that community officials can make
       more-informed development decisions.

Completing ESD principles. EPA has not prepared a watershed-wide set of
stormwater management principles to guide growth and new development.
EPA promised these principles in response to a May 2005 Urban Summit of
stakeholders. The principles should already be completed based on EPA’s
schedule. When interviewed in October 2006, the CBPO Director said that 2006


                                14 

         budget cuts prevented EPA from                     Noteworthy Achievement
         accomplishing this task. While some            Leaders in ESD Practices
         watershed communities are recognized
         national leaders in adopting mitigating        The watershed organization Friends
         practices to address growth (see box at        of the Rappahannock has been
                                                        promoting environmental awareness
         top right), the trend of increasing loads      in the rapidly growing north-central
         from developed lands will be halted only       part of Virginia (the southern
         if communities across the Bay watershed        extremes of the District of Columbia
         adopt ESD practices to minimize                commuting area) since 1985. The
         impacts of new development. The                Friends organization and others are
                                                        featured in an educational video on
         CBPO needs to complete the promised            ESD practices, Reigning in the
         set of ESD principles and create a             Storm. The video, produced by the
         program endorsing these practices.             Northern Virginia Regional
         Developers advised us that communities         Commission, has been adapted for
         took a long time to approve new                use elsewhere. Another community,
                                                        Prince George’s County, Maryland,
         practices because they did not know            has proven ESD practices can be
         how reliable the practices were. An            effective even in heavily urban
         endorsement program could help to              environments with space limits.
         provide information on effectiveness of
         practices and promote quicker
         acceptance of the practices.

          ESD practices should be considered at the beginning of new development
          planning (see box at bottom left). Traditionally, stormwater planning and
                                        permitting have been considered engineering steps
     Noteworthy Achievement
                                        that are accomplished at the end of development
Certification Program for               planning. However, effective stormwater
Neighborhood Development                management includes an initial assessment of site
A certification program being           suitability and extends to consideration of collective
developed by the U.S. Green             impacts of numerous decisions that might reach
Building Council, Leadership in         beyond a municipality’s boundary. EPA and its
Energy and Environmental Design         partners are working to better support this shift at
for Neighborhood Developments
(LEED-ND), emphasizes smart
                                        the local planning level.
growth aspects of development,
while also recognizing important        Some Bay communities lack the resources to
green building practices that are the   develop their own set of best principles and would
core of their current building          benefit from EPA and its partners doing so. We
certification program. LEED-ND will
require proper siting and
                                        understand that EPA needs to prioritize its tasks.
conservation of wetlands and            However the absence of the promised set of
waterbodies and will provide credit     principles hinders the achievement of load
for minimizing site disturbance         reductions in some communities. The set of
through site design and during          practices for minimizing the impacts of
construction and stormwater
management, among other ESD
                                        development on the watershed (Appendix B),
practices. Over 20 developments in      prepared by the OIG from EPA guidance
the watershed have applied for          documents with the assistance of experts, could be
certification consideration under the   considered as a starting point.
pilot phase of LEED-ND.


                                          15 

Increased leadership from the CBPO is needed to reverse the trend of increasing
loads from developed and developing lands. The principles will not achieve and
sustain Bay restoration unless communities apply them. Therefore, CBPO needs
to prepare and implement a strategy on how it will work with its State and local
partners, developers, Federal agencies, and other stakeholders to adopt these
principles. EPA should promote inclusion of these or similar principles into
stormwater permits, local building codes, and new development plans.

Addressing potential conflicts. Potential conflicts between communities’
environmental and economic goals have not been addressed completely.
Determining the potential impacts of the tributary strategies on communities’
growth is critical for ensuring that these communities will identify and surmount
challenges. In response to a 2001 Government Accountability Office (GAO)
report, EPA committed to review “key EPA rules and programs to determine if
they conflict with local growth management efforts or have unintentional effects
on development patterns.” However, EPA has made limited progress in
conducting these reviews and needs to evaluate how the Chesapeake Bay
restoration may conflict with local growth management efforts.

An example of the type of analysis that is required surrounds the potential conflict
between tributary strategy targets and anticipated growth in Cecil County,
Maryland. The county is projected to nearly double in population between 2000
and 2030, partly due to the planned expansion of the nearby Aberdeen Proving
Grounds. This projected growth could result in the wastewater treatment facilities
reaching their nutrient allocation caps. If the treatment facilities cannot expand,
county officials may abandon their efforts to concentrate development in
designated growth corridors. This action may result in development at lower
densities on septic systems, greater loss of forest and agriculture lands, and
increased nitrogen loads to the Bay. Environmental and planning staff in
Lancaster County, Pennsylvania, identified a similar challenge. When the
nutrient and sediment allocations to meet Bay restoration are re-evaluated by EPA
and its Bay partners in 2008, effects on
local growth management should be one                 Noteworthy Achievement
of the factors considered.                        Educating Local Officials

Expanding educational opportunities.            NEMO (Nonpoint Education for
                                                Municipal Officials) is a national
EPA and its Bay partners need to expand         network of education programs
educational outreach efforts for                teaching local land use decision
environmental and planning staff and            makers about the relationship
municipal officials. EPA and its Bay            between land use and natural
partners have initiated a new support           resources protection. The National
                                                Oceanic and Atmospheric
effort, the Chesapeake-oriented “NEMO”          Administration, National Park
project (see box). However, as a pilot, it      Service, and EPA are partnering to
will not be able to assist a large number of    expand this network to include
communities. In addition, the Local             Chesapeake Bay watershed
Government Advisory Committee to the            communities. However, efforts are
                                                limited to date.
Chesapeake Executive Council has


                                 16 

initiated a program in which local governments are matched with other local
governments that have applicable environmental protection experience. EPA and
its partners should prepare and implement a strategy for wider application of these
programs. Targeting specific geographic areas may better serve communities
with the greatest needs and achieve the greatest environmental results.

EPA provides educational opportunities, such as the online watershed academy
courses and the stormwater workshop, Stepping up Your Local Stormwater
Management Program, held across the nation. In addition, EPA recently
published and electronically distributed guidance material on stormwater practices
and water-resource aspects of smart growth. EPA and its Bay partners could
further promote to their local partners these nationally-provided education
opportunities and guidance materials.

In addition to formal training, EPA and its
                                                       Noteworthy Achievement
jurisdiction partners may need to provide
community-specific guidance. For example,          Developer’s Scorecard
technical analyses should consider cumulative      Developers interviewed said they
downstream effects of numerous individual          would use ESD development
site management decisions that extend beyond       practices more widely if they
the local municipal boundaries. Further, the       were assured their project plans
                                                   would be approved more readily.
technological and economical effectiveness of      To gain approval, developers in
new technology may not be available. In the        Spotsylvania County, Virginia, will
absence of this information, local jurisdictions   be able to use a scorecard to rate
may be reluctant to attempt to apply or            their proposed development and
endorse newer practices. The more                  ensure that they have enough
                                                   management practices that are
comfortable the communities are with ESD           protective of the watershed, such
practices, the more likely they are to approve     as ESD, to gain approval.
such projects (see box).

Even when information is available, applying techniques may require special
knowledge. Site-specific considerations – such as topography, soil conditions,
and vegetative cover – need to be incorporated into estimates of the effectiveness
of practices proposed at a particular site. Smaller communities that do not often
engage in these analyses may find they need individualized support from EPA or
States so that community officials can make more-informed development
decisions.

Limited Funding Available for Costly Practices

In 2004, CBPO estimated that nearly two-thirds (or $18 billion) of the $28 billion
for implementing all aspects of the tributary strategies will be needed for reducing
loads from developed and developing lands. This is approximately $3,000 per
household in the watershed. Funds have not yet been identified for the vast share
of the anticipated need. Further, about two-thirds of the estimated $18 billion are




                                 17 

for practices not currently required by regulations, and thus would not be a top
priority for funding.

Some municipalities established stormwater utility fees to provide a dedicated
funding stream for capital improvements and annual maintenance costs (see box).
However, these fees are not found in all
communities, and stormwater costs may               Noteworthy Achievement
compete for general revenue funds against     Stormwater Management Fees
other worthy local needs, such as
education and public safety.                  A Montgomery County, Maryland,
                                                Water Quality Charge added to
                                                county tax bills has funded
Some communities use bonds or loans to          maintenance of the stormwater
finance major capital expenditures, such as     management systems within the
stormwater retrofit and stream restoration      county since 2002. In Fiscal Year
projects. Communities can secure low-           2006, $4.5 million was collected.
                                                A recent 30-percent increase in the
interest loans from the Federal- and State-     charge will provide dedicated
financed Clean Water State Revolving            revenue for stormwater
Fund, but funding is limited. In 2006, the      management capital-improvement
three signatory States provided about $300      projects, and for the first time will
million for projects across the States, not     provide grants to homeowners to
                                                implement ESD projects, such as
only those associated with Bay restoration.     rain gardens.
These funds supported a variety of clean
water projects (wastewater treatment
facility upgrades, nonpoint source controls, and estuary projects). Since 1990, the
Bay States disbursed from their State Revolving Funds approximately $3 billion,
or 18 percent of the estimated costs to reduce loads from developed and
developing lands. Given these parameters, the State Revolving Fund cannot
provide the magnitude of financing needed to implement the full range of actions
laid out in the tributary strategies to reduce these loads.

EPA’s nonpoint source grant to each State, otherwise know as a “319 grant” (after
the section of the Clean Water Act authorizing the program), is a possible source
of funds. These grants cannot be used by communities to meet stormwater permit
requirements, but are available for projects that exceed regulatory requirements.
The three signatory States and the District of Columbia were awarded a total of
$141 million over the last 6 years (2000-2005) in 319 funding. However, some of
the funding was awarded for projects outside the Bay watershed. In addition,
only 16 percent of the funding was for developed land projects. Maryland and the
District of Columbia exceeded, and Virginia and Pennsylvania were significantly
below, the national average of 10 percent spent on developed land projects.

Bay watershed communities also have several other Federal funding sources
specifically available to them. However, these programs provide a relatively
small amount of money for reducing loads from developed and developing lands.
CBPO awards about $8 million annually in implementation grants to the Bay
jurisdictions. However, our review of the implementation grants showed few



                                 18 

         funded activities in 2005 had a developed land focus. Two Chesapeake Bay
         grants programs are also available to fund local demonstration projects. In 2006,
         2 out of 10 targeted watershed grants (approximately $1.35 million) had a
         developed land element. Also, 12 of 68 small watershed grants (approximately
         $458,000) included a developed land element, according to CBPO.

         EPA and its Bay partners could also use              Noteworthy Achievement
         recognition and incentive programs to          Recognition Award Promotes
         increase the level of projects undertaken      Innovative Practices
         by communities. This is particularly true
         for projects that exceed current permit        Virginia and EPA’s CBPO and
                                                        Region 3 signed a May 2005
         requirements. However, EPA’s Office of         Memorandum of Understanding that
         Water has not awarded a Clean Water            included establishing a recognition
         Act Recognition Award for stormwater           program. In April 2006, five
         management excellence in 2 of the last         municipalities, universities, and
         5 years. A Chesapeake Bay watershed            organizations were recognized for
                                                        their use of innovative techniques to
         community was last recognized in 1998.         control stormwater runoff. In
         A new awards program, recognizing              January 2007, EPA Region 3 and
         innovative techniques to control               the Low Impact Development Center
         stormwater, was piloted in Virginia in         announced a similar recognition
         2006 (see box). More recently, the             program for all States in the region.
         program was expanded to include the
         entire region. Incentives, such as modest tax credits and streamlined permit
         processes, could prompt landowners and developers to voluntarily adopt ESD
         practices. Developers generally point to the need for incentives, particularly
         where local codes do not require action.

Conclusions
         Development growth within the Chesapeake Bay watershed is outpacing progress
         in efforts to reduce nutrient and sediment loads from developed lands.
         Developing a strong partnership with local communities is the key to curbing
         these loads. Local communities determine how development will occur; they are
         also being relied upon to implement costly practices that often exceed regulatory
         requirements to restore the Bay. EPA and its State partners have focused their
         efforts primarily on the most cost-effective practices of upgrading wastewater
         plants and implementing agricultural practices, leaving communities without clear
         expectations of their role in reducing nutrients and sediment loads or how best to
         do so. A cost-effective start to reversing the trend of increasing loads is for
         communities to adopt more ESD practices. CBPO will need to take a greater
         leadership role by developing a strategy to work with its partners to set a direction
         for development consistent with the Chesapeake restoration goals. EPA and its
         State partners have an array of regulatory, incentive, and voluntary program tools
         they can use. While actions taken in response to the following recommendations
         will not resolve the wide range of Bay water quality problems, CBPO needs to
         take the first step in coordinating an effective approach.


                                           19 

Recommendations
    We recommend that the EPA Region 3 Regional Administrator charge:

    2-1 	   The CBPO Director to prepare and implement a strategy that demonstrates
            leadership in reversing the trend of increasing nutrient and sediment loads from
            developed and developing lands. Such a strategy should include steps to:

            •	     develop a set of ESD practices that result in no-net increase in nutrient and
                   sediment loads and flows in new developments and may be applicable to
                   existing development and redevelopment;
            •	     work with State and local partners, developers, Federal agencies, and other
                   stakeholders to implement these practices through regulatory, voluntary,
                   and incentive approaches;
            •	     educate municipal officials on these practices and other aspects of ESD;
            •	     target technical assistance to local governments interested in pursuing
                   tools and strategies for reducing runoff from development;
            •	     identify progressive local governments and leaders in the housing and
                   commercial development fields and create forums for sharing information;
            •	     report on progress through the existing annual reporting structure; and
            •	     evaluate the effectiveness of the strategy.

    2-2 	   The CBPO Director to work with the Chesapeake Bay partners to set realistic,
            community-level goals for reducing nutrient and sediment loads from developed
            and developing lands.

    2-3 	   The Water Protection Division Director to establish, with the delegated States, a
            documented permitting approach that achieves greater nutrient and sediment
            reductions in MS4 permits across the watershed by:

            •	     incorporating measurable outcomes in line with waste load allocations,
                   when established for local waters and the Chesapeake Bay, through the
                   TMDL regulatory program;
            •	     including retrofitting of developed areas where these actions would benefit
                   local waters as well as the Bay; and
            •	     disallowing increases in loads and flows from new development unless
                   offsets or trades are obtained.

Agency Comments and OIG Evaluation
            The Agency concurred with the recommendations in this report. See Appendix D
            for its response. These recommendations will remain open until the Agency has
            completed the agreed actions.




                                            20 

                                     Status of Recommendations and
                                       Potential Monetary Benefits
                                                                                                                            POTENTIAL MONETARY
                                                  RECOMMENDATIONS                                                            BENEFITS (in $000s)

                                                                                                                Planned
    Rec.   Page                                                                                                Completion   Claimed    Agreed To
    No.     No.                         Subject                          Status1         Action Official          Date      Amount      Amount

    2-1      20    Charge the CBPO Director to prepare and                 O             EPA Region 3
                   implement a strategy that demonstrates leadership                  Regional Administrator
                   in reversing the trend of increasing nutrient and
                   sediment loads from developed and developing
                   lands. Such a strategy should include steps to:
                      • develop a set of ESD practices that result in
                         no-net increase in nutrient and sediment
                         loads and flows in new developments and
                         may be applicable to existing development
                         and redevelopment;
                      • �work with State and local partners,
                         developers, Federal agencies, and other
                         stakeholders to implement these practices
                         through regulatory, voluntary, and incentive
                         approaches;
                      • educate municipal officials on these practices
                         and other aspects of ESD;
                      • target technical assistance to local
                         governments interested in pursuing tools and
                         strategies for reducing runoff from
                         development;
                      • identify progressive local governments and
                         leaders in the housing and commercial
                         development fields and create forums for
                         sharing information;
                      • report on progress through existing annual
                         reporting structure; and
                      • evaluate the effectiveness of the strategy.

    2-2      20    Charge the CBPO Director to work with the               O             EPA Region 3
                   Chesapeake Bay partners to set realistic,                          Regional Administrator
                   community-level goals for reducing nutrient and
                   sediment loads from developed and developing
                   lands.

    2-3      20    Charge the Water Protection Division Director to        O             EPA Region 3
                   establish, with the delegated States, a documented                 Regional Administrator
                   permitting approach that achieves greater nutrient
                   and sediment reductions in MS4 permits across the
                   watershed by:
                      • incorporating measurable outcomes in line
                         with waste load allocations, when established
                         for local waters and the Chesapeake Bay,
                         through the TMDL regulatory program;
                      • including retrofitting of developed areas
                         where these actions would benefit local
                         waters as well as the Bay; and
                      • disallowing increases in loads and flows from
                         new development unless offsets or trades are
                         obtained.


1     O = recommendation is open with agreed-to corrective actions pending
      C = recommendation is closed with all agreed-to actions completed
      U = recommendation is undecided with resolution efforts in progress




                                                                               21 

                                                                                      Appendix A

                 Details on Scope and Methodology
Primary documents consulted included:

   •   Chesapeake Bay Commission Annual Report
   •   Chesapeake Bay Foundation review
   •   Chesapeake Bay Watershed Blue Ribbon Finance Panel Report
   •   Chesapeake 2000 Agreement
   •   EPA and jurisdiction regulation and guidance documents on stormwater
   •   EPA smart growth reports
   •   Tributary strategies
   •   Maryland’s implementation strategy
   •   Local community stormwater and planning documents

Interviews included:

               EPA Headquarters
                  • Office of Water
                     •    Nonpoint Source Control Branch
                     •    Municipal Permits Branch
                  • Office of Policy, Economics, and Innovation
                     •    Smart Growth Office
               EPA Region 3
                  • Water Protection Division
                     •  Director and Associate Directors
                     •  Stormwater and nonpoint source program managers
                     •  TMDL coordinator
                     •  Geographical Information System team leader
               EPA CBPO
                  • Director,* Deputy Director, and Associate Directors
                  • Program managers for land and nonpoint source data
                  • Coordinators for various committees and workgroups
               Developers
               Experts in stormwater and land management
               Nonprofit advocacy and watershed organizations
                Jurisdiction staff
                    • Stormwater coordinators
                    • Tributary strategy coordinators
              * The CBPO Director retired and a new Director was appointed in April 2007;
                we interviewed both Directors.


We limited our inquiry to the four signatory jurisdictions: Maryland, Virginia, Pennsylvania,
and the District of Columbia. More than 90 percent of the loads from developed and developing
lands in the Bay watershed come from these four jurisdictions.



                                                22 

CBPO groups urban runoff, mixed open, and septic systems together when reporting on progress
in reducing loads from developed and developing lands. However, not all lands grouped in
mixed open are developed lands. Septic systems are discussed in this report only in relation to
new development and the possible effects of limiting discharge from wastewater treatment
facilities. Most of this report focuses on runoff from developed and developing lands and the
stormwater management practices used to control that runoff.

We visited nine communities that       Table A-1: Communities Visited
together accounted for about           Focus on Retrofits       Focus on New Development
19 percent of the total watershed      Albemarle County, VA     Cecil County, MD
population (see Table A-1). They       Baltimore, MD            Lancaster County, PA
included 4 (2nd, 5th, 6th, and 8th)    Charlottesville, VA      Montgomery County, MD
of the top 10 most populous            District of Columbia     Spotsylvania County, VA
communities. Communities were          Richmond, VA
chosen based on their estimated
                                       Source: EPA OIG review
contribution to the loads from
developed lands, projected 2030
population, recent development rates, and geographic location. We limited our visits to nine in
accordance with Office of Management and Budget’s rules for compliance with the Paperwork
Reduction Act.

With the assistance of experts, we developed a set of practices for minimizing the impacts of
development on the watershed (see Appendix B). EPA CBPO and Headquarters staff reviewed
this set of practices; they generally concurred with the set and provided input that was
incorporated into the final version. We used the set in our four visits focusing on new
development to assess community interest in adopting practices that minimize impacts of
development on the watershed. The group of experts included:

   •   Chet Arnold, Nonpoint Education for Municipal Officials, Connecticut
   •   Vladimir Novotny, Northeastern University, Boston, Massachusetts
   •   Tom Schueler, Center for Watershed Protection, Maryland
   •   Neil Weinstein, Low Impact Development Center, Maryland

Management Controls

To assess management controls, we obtained an understanding of the controls EPA has available
to assist the Bay partners in achieving their goals for reducing loads from developed and
developing lands. Bay partners are relying on control of stormwater quality and quantity,
promotion of ESD, upgrade of septic systems, education of the public, and decrease of sources to
meet these goals. Federal regulations do not control small scale, domestic septic systems or land
use decisions, leaving the Federal stormwater program as EPA's primary means of assisting the
Bay partners. We reviewed applicable regulations and guidance related to EPA’s stormwater
management program. However, because widespread adoption of ESD practices will be
important in sustaining the goals of reduced loads from developed lands, we did conduct some
work in this area and found that EPA recently provided guidance.




                                               23 

EPA reported in its 2005 Performance and Accountability Report that current pollutant loads
continue to exceed the level needed to meet water quality standards. EPA financial data is
subject to annual audit by the OIG. Chapter 2 identifies findings and recommendations where
EPA and its partners can improve their management of the Chesapeake Bay Program.

Limitations

The data in several figures and tables in this report are results from EPA’s Chesapeake Bay
watershed model (v. 4.3). The model relies on data collected from and generated by other
sources, such as data on implementation of best management practices required by stormwater
permits. We did not assess the accuracy of the inputs to and results from the model or assess the
appropriateness of EPA’s use of the model.

Prior Reviews

   •	 GAO, Federal Incentives Could Help Promote Land Use That Protects Air and Water
      Quality, GAO-02-12, October 2001
      GAO recommended that the EPA Administrator review key rules and program activities
      “to see if they conflict with states’ and localities’ growth management efforts.” In EPA’s
      2002 response, EPA agreed with the recommendations and committed to developing a
      draft prototype process by June 2002. In response to an OIG request for followup
      information, an EPA official in the Office of Policy, Economics, and Innovation reported
      in March 2006 that a formal process had not been put into place, noting the office
      “handles reviews of key rules and programs as they become aware of them.”

   •	 GAO, Chesapeake Bay Program: Improved Strategies Are Needed to Better Assess,
      Report, and Manage Restoration Progress, GAO-06-96, November 2005
      GAO recommended that the EPA Administrator instruct the CBPO “to (1) complete its
      efforts to develop and implement an integrated assessment approach; (2) revise its
      reporting approach to improve the effectiveness and credibility of its reports; and
      (3) develop a comprehensive, coordinated implementation strategy that takes into account
      available resources.”

   •	 EPA OIG, EPA Grants Supported Restoring the Chesapeake Bay, 2006-P-00032,
      September 2006
      EPA OIG noted EPA awarded grants that contributed toward meeting Clean Water Act
      and Chesapeake 2000 Agreement goals, and did not make recommendations.

   •	 EPA and U.S. Department of Agriculture OIGs, Saving the Chesapeake Bay
      Watershed Requires Better Coordination of Environmental and Agriculture Resources,
      EPA OIG 2007-P-00004/USDA OIG 50601-10-Hq, November 2006
      The OIGs reported that Bay partners have committed the agricultural community to
      making the largest nutrient reductions, but numerous practices abound and are generally
      performed on a voluntary basis. The OIGs recommended that EPA improve its
      coordination and collaboration with its Bay partners and the agricultural community.




                                               24 

•   EPA OIG, EPA Relying on Existing Clean Air Act Regulations to Reduce Atmospheric
    Deposition to the Chesapeake Bay and its Watershed, 2007-P-00009, February 28, 2007
    EPA OIG reported that Federal Clean Air Act regulations designed to decrease nitrous
    oxide emissions are reducing the amount of nitrogen that reaches the Bay. The OIG
    recommended that the CBPO develop actions and strategies needed to address nitrogen
    deposition from animal feeding operations.




                                         25 

                                                                                          Appendix B

        Community Practices to Minimize Impacts of 

             Development on a Watershed 

This set of community practices for minimizing the impacts of development on the watershed
was drafted by the OIG with the assistance of a team of experts. It is provided here for use by
the CBPO as it develops a set of ESD practices that result in no-net increase in nutrient and
sediment loads and flows in new development, and may be applicable to existing development
and redevelopment.

Planning and Coordination

       •	   Community establishes, promotes, and ensures implementation of goals to protect, preserve,
            and restore environmental resources, including streams and rivers and natural lands, and
            incorporates these goals into comprehensive plans, open-space plans, and watershed plans.

       •	   Environmental resources, including water resources, are inventoried and their value to the
            community is determined.

       •	   Land use, community development, and environmental strategies complement each other
            and achieve community’s environmental goals. These strategies include land preservation;
            planning for commercial, residential, and transportation growth; stream restoration;
            stormwater management; air-quality goals; drinking-water-source protection; community
            standards of quality of life; and TMDL development and implementation.

Stormwater Management

       •	   Community stormwater management strategy includes EPA’s Phase II six minimum
            measures, regardless of regulatory requirements based on urban area classification:

            •	   public education and outreach;
            •	   public involvement and participation;
            •	   illicit discharge detection and elimination;
            •	   construction site runoff control;
            •	   post-construction stormwater management in new development and redevelopment; and
            •	   pollution prevention and good housekeeping for municipal operations.

       •	   Stormwater is managed systematically across the community: metrics are established, the
            system is maintained, the effectiveness of the system and its components is evaluated, and
            results of evaluation are used to continually improve the system of management practices.

       •	   Stormwater management, a key component in watershed preservation, is considered early
            and throughout the development design process, including commercial, residential, and
            transportation projects.

Land Development

       •	   Land use regulations and ordinances are changed to guide the location, density, and design
            of development to protect priority water and other environmental resources.




                                                   26 

       •	   The community appropriately directs development to existing growth centers, transportation
            hubs, and underutilized properties, such as brownfields, greyfields, and vacant properties.

       •	   The community employs a wide range of land use strategies based on local factors, which
            include a range of building densities and preserve critical ecological areas.

       •	   Impervious area is limited by design and runoff from area is managed to the extent possible
            to preserve predevelopment hydrology and to remove pollutants.

       •	   The community leads by example and incorporates better site design and green building
            techniques into municipal construction projects.

       •	   Land disturbance activities, such as clearing and grading and cut-and-fill, are limited during
            development to reduce erosion, sediment loss, and soil compaction.

Natural Resources

       •	   Areas that provide important water quality benefits or are particularly susceptible to erosion
            and sediment loss are protected through conservation easements, public land ownership, or
            other conservation practices.

       •	   Tree canopy is restored, promoted, and maintained in urban and suburban areas.

       •	   Natural drainage features and vegetation are preserved and maintained to the extent
            possible. Infiltration is promoted where soils are appropriate; where soils will not allow
            infiltration, other means of restoring or maintaining natural hydrologic functions of the
            watershed are promoted.

       •	   Streams within the community are restored to their full ecological function, including restoring
            their natural denitrification potential.

Source Reduction

       •	   On-site wastewater treatment systems are permitted, developed, and maintained that
            adequately protect surface water and ground water quality, using nitrifying/denitrifying
            systems where appropriate and feasible.

       •	   Sources of nitrogen are reduced through education of land owners and resource managers
            on use of commercial fertilizers and through implementation of fertilizer reduction strategies
            on public lands.

       •	   Municipal services are provided to make personal stewardship of environmental resources
            more convenient for residents. These services may include rain barrel construction
            programs, pet waste bags supplied at all parks, and education programs on lawn care
            management.

Regional Coordination and Cooperation

       •	   Coordination and cooperation with neighboring communities are established and maintained
            so that watersheds crossing political boundaries are adequately protected.




                                                     27 

                                                                                                  Appendix C

                Details on Load Reduction Progress
In March 2006, EPA and its Bay partners were not able to report on progress in reducing loads
from developed and developing lands in the report Chesapeake Bay 2005 Health and Restoration
Assessment, Part Two: Restoration Efforts (Figure C-1a). The reason given was that current
tracking of efforts was not uniform throughout the Bay watershed. EPA and its Bay partners
have worked to correct these reporting problems. CBPO in April 2007 published the 2006
Restoration Report showing negative progress in reducing loads from developed and developing
lands (Figure C-1b).
a)




b)




               Figure C-1. Chesapeake Bay Program report of restoration progress:
                        a) 2005 (published in March 2006) and b) 2006 (published in April 2007)
                        (Source: CBPO)




In Chapter 2 of this report, we note that little progress has been made in reaching goals to reduce
nutrient and sediment loads from developed lands. However, more importantly, population
growth with its accompanying land development is increasing the loads. These increases



                                                        28 

threaten the attainment of the reduction goals and also make sustaining the restoration of the Bay
highly unlikely.

Loads from developed and developing lands are increasing as population increases and new
development continues across the watershed, as evident in Figure C-2. On each graph, colored
areas extend down from the axis at “0 Percent of Goal Achieved.” These areas show the
magnitude of the net, normalized increase in the loads from developed and developing lands –
the increase in each load due to new development minus the decrease in load from the
implementation of management practices, normalized by the reduction goal (relative to the 1985
loading rates). The magnitudes of the net increases are great relative to the reduction goals –
57 to 90 percent. However, the goals to reduce loads from developed and developing lands are
small relative to those in the agriculture and wastewater facility sectors. The net increases shown
in the Figure C-2 graphs represent fairly small increases in actual loading rates, only a fraction of
a percent of the overall loading rates from all sectors. Even though these increases are currently
small, any unplanned increase should be cause for concern and should not be neglected if EPA
and its Bay partners hope to sustain restoration in the future.




          Figure C-2. Estimated backwards progress in achieving reduction of loads from developed and
          developing lands relative to the 1985 baseline
          (Source: CBPO)




                                                       29 

                                                                                      Appendix D

                   Agency Response to Draft Report


                 UNITED STATES ENVIRONMENTAL PROTECTION AGENCY 

                                        REGION III 

                                    1650 Arch Street 

                         Philadelphia, Pennsylvania 19103-2029 



                                        August 20, 2007


SUBJECT:       EPA’s Response to OIG Draft Assignment No. 2006-000303 dated July 3, 2007
               entitled, “Runoff from Developing Land Needs to be Reduced to Restore
               Chesapeake Bay Watershed”

FROM:          Donald S. Welsh /s/
               Regional Administrator

TO:            Dan Engelberg, Director for Program Evaluations, Water Issues
               Office of the Inspector General

        We concur with the attached revised recommendations.

       If you or your staff has any questions related to our response to the draft report and the
revised recommendations, please contact Jeff Lape at 410-267-5709 or Carin Bisland at
410-267-5732.

cc. 	   Benjamin Grumbles, Assistant Administrator, Office of Water
        Jon Capacasa, Director, Region 3 Water Protection Division
        Jeff Lape, Director, Region 3 Chesapeake Bay Program Office
        Richard Batiuk, Associate Director for Science, Chesapeake Bay Program Office
        Carin Bisland, Associate Director for Communications and Administration, Chesapeake
           Bay Program Office
        Lorraine Fleury, Audit Coordinator, Region 3
        Michael Mason, Office of Water




 NOTE: Attached recommendations, referenced in the above memo, are the same as those that
 appear on page 20.


                                                30 

                                                                       Appendix E

                                    Distribution

Office of the Administrator
Regional Administrator, Region 3
Assistant Administrator, Office of Water
Director, Chesapeake Bay Program Office
Director, Water Protection Division, Region 3
Office of General Counsel
Agency Followup Official (the CFO)
Agency Followup Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Followup Coordinator, Region 3
Audit Followup Coordinator, Office of Water
Acting Inspector General




                                             31 

